SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8013
AMERICA  ASIA PACIFIC  EUROPE

PZIDLICKY@SIDLEY.COM

May 4, 2021
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

North American Meat Institute v. Rob Bonta, Attorney General of California,
et al., No. 20-1215

Dear Mr. Harris:
The State respondents in this matter previously waived any response to the petition
for certiorari that the North American Meat Institute (“NAMI”) filed on February 26, 2021.
On April 22, 2021, this Court directed both the state respondents and the private respondentintervenors to file a response to the petition no later than May 24, 2021. The state
respondents now move for a 30-day extension of time to file their response, “up to and
including Wednesday, June 23, 2021.” NAMI opposes the requested extension or any other
extension of the briefing schedule.
First, time is of the essence. NAMI is seeking review of the denial of a preliminary
injunction against a California law (Proposition 12) that bans imported veal and pork
products from the California market unless out-of-state farmers house their animals in the
manner dictated by California. As discussed in NAMI’s petition, these requirements impose
massive burdens on interstate and foreign commerce in pork and veal, including by requiring
thousands of small farmers across the Nation to either reconstruct their existing facilities to
comply with Proposition 12 or suffer exclusion from the California market. Proposition 12’s
requirements for veal calves are already in effect and causing substantial harm, and the
requirements for breeding sows take effect on January 1, 2022. The extension sought by
state respondents would delay resolution of the petition until the end of the summer recess.
NAMI submits that the petition should be decided as soon as possible, to allow the Court, if
it grants review, to resolve the case at the earliest possible date.
Second, respondents made a strategic decision to waive their response to the petition.
The Court having now called for a response, respondents should not be permitted to gain an
unfair advantage by further delaying resolution of the petition until after the Court has
recessed for the summer. See Stephen M. Shapiro, et al., Supreme Court Practice § 6.37(C)
(10th ed. 2013) (“If a respondent seeks an extension that would push consideration of the case
to the long conference at the end of the summer recess . . . the Clerk may suspect strategic
Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

May 4, 2021
Page 2
behavior and, absent the petitioner’s consent, limit any extension to allow the petition to be
considered in June.”).
Finally, while NAMI appreciates counsel’s other obligations, respondents have been
afforded ample time to prepare a response to the petition. The petition was filed on February
26, 2021, and the amicus brief of 20 States supporting NAMI’s petition was filed on March
29, 2021. The current due date for respondents’ brief in opposition—May 24, 2021—thus
affords respondents almost three months since the filing of the petition and almost two
months since the filing of the States’ amicus brief. Respondents have thus already received
the functional equivalent of a 50-plus-day extension from the original April 2, 2021 due date.
For these reasons, NAMI respectfully requests that the extension motion be denied.
Sincerely,
/s/Paul J. Zidlicky
Paul J. Zidlicky
Counsel for Petitioner
cc:

Samuel T. Harbourt
Bruce Andrew Wagman

